                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM
                                                               /




 Case Number: I08060042                                                                      Page 1 of 1
                          J




         In June 2008, our office received an anonymous letter alleging an NSF senior manager (subject)'
         was having an affair with an NSF Program Director (PD)~,and raising issues of his abuse of
         power, misuse of NSF travel funds, and a lack of integrity in certain NSF site visits. Over the
         course of the investigation, our office received numerous additional anonymous letters raising
         these same allegations.

         Based on the interviews conducted and documents reviewed, we determined the allegations
         pertaining to abuse of power and the integrity of the NSF site visits were unsubstantiated;
         however, we determined the subject used NSF travel funds for personal gain.

         We issued a report of investigation3 and as a result, NSF issued a policy clarification to more
         explicitly explain the meaning of personal travel as opposed to business (essential) travel.
         Further, NSF required the subject to return a portion of the amount of misused travel funds
         identified by OIG and restricted his NSF t r a ~ e l . ~

                    Accordingly, this case is closed.




           See Tab 1
           See Tab 2




NSF OIG Form 2 (1 1\02)
      Please note: This report contains confidential personal information and it should be disclosed
      only to individuals who must have knowledge of its contents to facilitate NSF's assessment
      and resolution of this matter. Unauthorized disclosure may result in personal criminal
      liability under the Privacy Act, 5 U.S.C. 9 552a(i)(l).



     I.     Summary

     OIG received copies of two anonymous letters' alleging several im roprieties by an
     Intergovernmental Personnel Act assignee (IPA) who serves as an                            (Subject)
     at NSF. The letters, which were circulated to numerous individuals within NSF and the research
     community, alleged two basic categories of misconduct: (1) Misuse of travel when the Subject
     extended an official business trip to pursue his intimate relationship with an NSF Program
     ~ i r e c t o (PD)
                   r ~ at NSF expense, and (2) Abuse of power and its impact on the integrity of NSF
     operations. With respect to the latter, the letters alluded to extra employment benefits received
     by the PD from the Subject to reward the PD for the personal relationship, and asserted that the
     operations of a site visit that both parties attended were negatively affected by their relationship.

     OIG investigated these allegations and determined that though the Subject was having an
     intimate relationship with the PD, evidence did not substantiate the related allegations that the
     Subject provided any employment benefits to the PD based upon their personal relationship, or
     that the Subject's relationship with the PD negatively impacted the integrity of an NSF site visit
     attended by both employees. However, from the review of the Subject's travel records and
     emails, and based upon two Subject interviews, OIG determined that the Subject based NSF-
     funded travel decisions, at least in part, on his desire to further personal relationships not only
     with the PD, but with other female companions unaffiliated with NSF.

     OIG concludes that:

              The Subject failed to meet the standards of conduct expected of NSF and executive
              branch employees;
.-
              The Subject based official travel decisions on personal factors, thereby increasing the
              cost of official travel charged to NSF; and

              The Subject lacked candor during the course of an official OIG investigation.

     This report will summarize our investigative findings with respect to these conclusions.
11.     OIG Investigation

        A.     Investigative Activity into Subject's Alleged Misuse of NSF Travel Funds

OIG investigated allegationsthat the Subject was using NSF travel h d s for personal gain.
Specifically, the allegations alleged the Subject extended a trip by two days to facilitate his
relationship with the PD. OIG reviewed the Subject's Official Personnel File (OPF), travel
records, and emails. OIG also conducted interviews of the subject: PD, and other NSF
employees who have traveled with the Subject.

From the Subject's OPF, OIG confirmed the Subject is an I P A . ~The Subject assumed the AD
position in June 2005 and his appointment expires in June 2009. As an IPA, the Subject is bound
by provisions of regulations and policies governing federal travel, ethics, and conduct of federal
employees.

OIG reviewed the Subject's travel orders, expense reports, and receipts for the two-year period
of June 2006 to May 2008. From the Subject's 42 NSF-hded trips during that time frame, OIG
identified 5 trips for which it appeared the Subject extended or initiated the trip to facilitate his
relationships with women.

During the review of the Subject's emails, OIG determined the Subject was involved in an
intimate relationship with the PD. OIG interviewed the Subject and the PD separately, and asked
them about the nature of their relationship. During OIG's June 28,2008, interview of the
~ u b j e c the
             , ~ initially vehemently denied any intimate relationship with the PD, referring to it all
as a "fabrication." However, when confronted with the fact that OIG had reviewed his emails,
he ultimately responded, "We have an intimacy, we have been intimate." He stated they had
kept their intimacy confidential and that it did not affect the integrity of NSF operations.7

During the interview with the PD, OIG asked for a description of her relationship with the
               ~ PD responded, "It's not an affair...we have a rich fantasy life in writing." OIG
~ u b j e c t .The
informed the PD that it is apparent, based on her emails with the Subject, that the relationship is
more than professional. OIG showed the PD several emails, one of which the PD writes, "we
should just stay home in bed and let the world come to us whenever we're ready." OIG restated
that the emails indicate the close, personal nature of the relationship and the PD responded, "We
are intimate."

  OIG investigators conducted two interviews of the Subject, the first on June 28,2008 [Tab 21 and the second,
which began on September 19,2008 ['Tab 41. The second interview occurred in two parts, the first on Friday,
September 19,2008, and the second part on Monday, September 22,2008. The second part was initiated by the
Subject when he offered to come to OIG's office and provide additional documentation regarding one of the trips at
issue. During that meeting, the Subject offered to and did revise some of the information he had provided the
previous Friday. For ease of reference, the first part will be referred to as the September 19,2008 interview, and the
second part will be referred to as the September 22,2008 interview.
* In order to preserve the confidentiality of the OPF, OIG has not attached Subject's OPF to the ROI. The OPF is
available through HRM.
  Tab 2, Memorandum of Investigation (MOI): Interview with Subject, dated June 28,2008,
' As an additional note, the Subject lacked candor during his interview, misrepresenting the nature of his relationship
with the PD and when the relationship started.
  Tab 3, MOI: Interview with PD, dated July 8,2008.
Based on OIG7sreview of the Subject's emails and interviews with the subject: it was also
apparent that the Subject initiated or extended NSF-funded travel to facilitate personal
relationships with two other females unaffiliated with NSF. The first is a female researcher
(Female 1)'' at a German university" who assisted the Subject in coordinating his speaking
arrangements during his Independent ResearchlDevelopment Program (IFUD) trips to her
university. In addition to the IFUD trips, the Subject traveled to visit with Female 1 at least two
occasions at NSF's expense. During the Subject's interview with OIG, he confirmed that he and
Female 1 had an intimate relationship, stating *hattheir relationship began during his
collaboration with her university six years ago and he served as an advisor for her dissertation.
The second (Female 2)12 lives on the U.S. West Coast and the Subject traveled a day early for
one trip, at NSF's expense, to spend the evening with her. In his interview, the Subject described
Female 2 as a friend and former student.

The following provides a summary of our findings with respect to the Subject's misuse of NSF
travel funds to M e r his various personal relationships, and his general lack of candor in
providing information to OIG investigators during the ongoing OIG investigation.

                1. Tokyo, Japan

In August 2006, the Subject arranged to speak at a'conference in Tokyo, Japan hosted by the
Tokyo Institute for Advanced Studies of Language (Tokyo Institute) in honor of its 40"
anniversary. l3 A Japanese Corporation (~orporation),'~  an organization sponsoring the
conference, offered to fund the Subject's travel on behalf of the Tokyo Institute, but the Subject
declined as NSF had agreed to fund the trip. However, in lieu of the Corporation funding his
trip, he arranged for the sponsor organization to fund Female 1's airfare to Tokyo, ~ a ~ a n .He
                                                                                               "
also suggested that the sponsor organization ask Female 1 to speak in some capacity, as she had
related experience.
                             (

During the September 19,2008 interview, the Subject initially denied that Female 1's travel to
Tokyo was related to his invitation and arrangement to provide lectures for the Tokyo Institute,
and asserted that Female 1 had arranged for her speaking engagement with the Tokyo Institute
on her own. However, after OIG provided him with his emails to refresh his recollection, the
Subject admitted that he arranged for Female 1's travel to be paid for by the sponsor organization
and for her to speak in some capacity during the anniversary event.16 He asserted that he
intended to be in Germany during the same time frame to collaborate with Female 1, and recalled
suggesting that if the sponsor organization could fund her travel, it would "take care of his
problem." The Subject stated he and Female 1 collaborated on a paper while in Tokyo; however,
                                 /




     -
                                                                               *
     Tab 4, MOI: Follow Up Interview of Subject, dated September 22,2008.

12

l 3 The emails suggest that the Subject initiated an offer to speak at the anniversary event; however, during the
interview with the Subject, he recalled that the host institution initiated the invitation.
l4
l5   Tab 4, Attachment B.
l6   Tab 4, Attachment B.
the collaboration was not mentioned on his travel authorization document, and the Subject stated
that this collaboration did not result in any published paper. The Subject stated that he did not
contact anyone at NSF to ask whether his travel arrangements violated any NSF regulations or
policies, as he felt his actions were appropriate.

In his September 22,2008 interview, the Subject offered a correction to his earlier statements,
informing OIG investigators that when he initially received the Tokyo invitation to speak, he
contacted the former NSF Desi ated Agency Ethics Official (DAEO), to see if the Corporation
could fund his travel expenses.'According     to the Subject, the DAEO opined that since the
Subject would also be conducting NSF business on the trip, he should decline the funding. The
Subject further stated he did not seek any advice from the DAEO about the ethical nature of
arranging for the Corporation to instead pay for Female 1's travel expenses, nor did he believe it
was inappropriate for him to make such an arrangement.

From the review of documentation and interview with the Subject, OIG determined the Subject
lacked candor when providing information to OIG pursuant to an official OIG investigation by
providing misleading information until presented with emails that contradicted his responses.
Moreover, OIG determined that he scheduled this trip to Tokyo, at least in art, to further his
intimate relationship with Female 118for a total expense to NSF of $6,755.P9 Further, he asked
another organization to fund Female 1's travel to Tokyo, which constituted an added monetary
benefit.

              2. Vancouver, British Columbia, Canada

In March 2008, Female 1 met the Subject on a trip to Vancouver, where he was invited to speak
at a linguistics workshop. During his September 19,2008 interview, the Subject stated he
initially declined the invitation to speak at the workshop. However, he was scheduled to attend a
site visit in San Diego, and when he learned that the DC-Vancouver-San Diego-DC airline ticket
was cheaper than the non-stop DC-San Diego-DC ticket, he decided to add the stop in
Vancouver since it was less expensive.'' Further, Female 1 was planning to be in Vancouver at
the same time visiting her family, which would afford him the opportunity to meet them. When
asked, he confirmed that his visit with Female 1 did not involve any collaboration, and was for
purely personal reasons.

l7 The Subject stated he had a telephone conversation with the former D   A
                                                                          ;E
                                                                           -                       therefore, the
guidance was provided verbally, not in writing. He stated this was the normal means of obtaining guidance fiom the
DAEO, as he had recently done so with the current D   A
                                                      .E
                                                       -
l8 As a further note, in his September 22,2008 interview, the Subject offered as clarification to OIG investigators
that his intimate or sexual relationship with Female 1 ended in 2003 or 2004, stating that since that time, he had been
"close" with her, but not intimate in that way. When confronted with the fact that OIG had emails establishing that
                                                                                                                       ,
his relationship with Female 1 was intimate or of a sexual nature after that time fiarne, ['Tab 4, Attachment J] he
responded that he could not put a date on when the sexual relationship ended (despite the fact that he had done just
that) nor did he believe it to be relevant. He also declared, "I have a rich fantasy life," which is the exact quote used
by the PD in describing her relationship with the Subject [Tab 31, making it appear that this response had been
rehearsed. In any case, a review of the statements made by the Subject in comparison to the attached emails makes
it clear that this was yet another area where the subject lacked candor and provided OIG investigators with false or
misleading information.
l9 Tab 5, Expense report.
20 Tab 4.
         When asked to confirm the factors he considered in accepting the speaking invitation, the
         Subject stated his decision to speak at the workshop was based on two factors: 1) Female 1's
         presence in Vancouver and the opportunity to meet her family; and 2) the cheaper airline ticket.
         The Subject stated that he did not take into account the cost of lodging or per diem in Vancouver,
         which he conceded made the trip more expensive,toNSF despite the reduced cost of the flight.
         When asked if he felt it was appropriate to consider Female 1's presence in Vancouver as a
         factor in deciding whether to accept an invitation to speak at a workshop, the Subject responded,
         "Yeah, why not?"

         Based on the interview with the Subject, OIG determined the Subject extended an official
         business trip to further his intimate relationship with Female 1 at NSF's expense. Total expenses
     '   incurred by NSF for the trip to Vancouver were $644.=

                     3. San Diego, CA

         The Subject attended a site visit in San Diego, CA in April 2007. The site visit started on
         Sunday evening; however, the Subject arrived on Saturday evening. Emails between the Subject
         and Female 2 indicate the Subject arrived one day early in order to have dinner with Female 2.22
         The Subject writes, "Ordinarily, I would fly out on Sunday...my site visit in San Diego begins on
         Sunday 29th in late afternoon...I should be able to fly out a day earlier...If you want to come
         down that evening, stay over and spend the morning by the ocean, we can make that work."

         During his September 19,2008 interview with OIG, the Subject asserted that he "always" flies
         out the day before a work event when traveling to the West Coast, and that it was appropriate to
         arrive one day early, in part to spend the evening with Female 2. The Subject was unable to
         explain why his responses were contradicted by his emails to Female 2. In his September 22,
         2008 interview, the Subject revised his earlier statements and vehemently denied that he had
         actually seen or had dinner with Female 2 in San Diego in 2 0 0 7 . ~Subsequently,
                                                                               ~            OIG located
         emails exchanged upon the Subject's return from San Diego, in which the Subject states,
         "Brilliant to see you," and Female 2 responds, "Yes, it was really good to see you too."24 In
         addition, on September 24,2008, Subject sent follow-up correspondence attaching the same
         emails OIG had identified, and conceding that he did, in fact, have dinner with Female 2 on April
         28,2007, but denying that this constituted a misuse of NSF travel funds.25

         Based on this information, OIG determined the Subject traveled to San Diego one day earlier
         than he would have at NSF's expense, in order to meet Female 2 for dinner. Total expenses
I
         incurred by NSF for the additional day were $221?6
II
                     4. Seattle, WA
         -


         21
            Tab 6, Expense report.
         22 Tab 4, Attachment C.
         23 Tab 4.
         24 Tab 4, Attachment I.
         25 Tab 7, Email correspondence fiom Subject, dated September 24,2008.
         26 Tab 8, Expense report.
                                                                                      'aiuaunl~euv'P q a ~   ,,
                                          .%qua~aLapuns uo ue%aq11s'~ai!s ayl 'uop!ppa U I -sLap asoqi loj J S N
   urog iuaurasmquI!al aqa3al iou p!p aqs 'aloja~aq
                                                  lalqapnpxa se sLap aqxa o ~ayli pagrssep a d aqi 'aioujo   ,,
                                                                                      'H luaunl3aUv ' P 901  ,,
                     5
                                                                                      '9  1uaunl3euv  ' P qa.L
                                                                                                             ,,
                                                                                        'aluaunl3el-l~'P ~   E L
                                                                                                             ,,
                                                                                           I E 'SLS$Jo dSN
01 asuadxa ~ q ot?l 103 OE 'ssau!snq ~ S my)
                                         N laylt?l 'l~uosladloj alaM VM 'appas 01 IaAt?qpapuq
 -~SN  s,~:,a[qnsay) jo s h p o w )t?y)pauyurrajap 910 ' a l o j a ~ a y.hre)al:,as
                                                                         ~          s y 01 suo!)t?)uasalda~
            u a u y UMO sly uodn past?q 'sdvp oqxa ay) loj pasmqw!al st?^ pa[qng ayl 'dla)t?ur!)ln
                                                                                                      'dpl syy1
loj pedal asuadxa s,pa[qng ay) Suymdald uayM au!mol ay) Su!~ollojs e hra)al:,as        ~         ay) apnl:,uo:,
   0) alqt?uost?als! 11'sdt?p ~t?uos~ad ay) st? IIaM st? 'sasuadxa SuySpol pm uo!)wodsmq ay) Su!)s!l
     d y p a lagt? ICm)al:,as syy 01 1!t?wa m Su~puas       jo au!)nol s,pa[qng ay) uo p a a a .dqs laJoy
      ay)jo )@!u h a ~ loja saSrey:, ay) gal pm ast?y:,md a u F ayl lno passol:, ay y:,!y~ uo )d!a:,al
       1a)oy ay) pa:,npo~day py)dq$xo~a)ou         s! l! 'la~oalow-dt?punspm dt?pmpg )t?y)d o y s y l o ~
   s:,!~s!&uy t? U! pa)t?d!:,!~d ay )t?y)suo!~t?)uasa~dal     u a u w s!y uodn past?q dt?p y l o t?~w 'go02
             ~
 '1 E d t ? 'ICt?pmp?s parepap '1pma s y u! p a p ~ ~ ouopuuoju!
                                                             ld          ay) y ) p a:,mplo:,:,t? u! ' h ~ a m a s
          s y ley) pm 'vodal asuadxa alauI!lp ay) IOU uo!pzuoy)nt? ay) WM pap!hold ay )uaum:,op
          ay) ay)p a u y a l a p p m pa[qns ay) dq pap!~olduo!)quaum:,op 1aAE.q ay) paMa!Aalf)~o
                            .s)s!&u!l Maj t? y)plaaw p!p ay @nay) 'puaut? 01 IOU pap!:,ap ay Su!)qs
  'a~!)t?Sauay) u! palaMsm l:,a[qns ay) 'hpm)t?s uo d o y s y l o ~s:,!)s!nSu!~ t? papuaut? '13~3U! 'pey
   ay j! pay= uayM '1aqq.m~ ' 1E 1Ct?w' h p w s uo d o y s y l o ~s:,!)s!nSu!l t? papuaut?ay palqs pm
'du) ay) jo slyS!u arlg 1p 103 asuadxa laJoy t? palsy 'dvp ~ ~ u o s l t?a djo uo!)uaw ou apt?wm a m a s
                           ~
   sly 01 I!t?wa ayl l C y 'u!t?ldxa IOU plno:, pa[qng ay) Jnq 'payst? 910 -s,yS!u aAg jo pt?a)su! moj
01 Imba 'Su!Spol10j g09$ pas.mqw!al uaaq d ~ u opt?y ay 'uo!)t?zuoy)nt? lam4 sly lad )t?y)papasst?
  ay ' l a ~ a ~,;OZo ~1$ JO ~unoumay) u! a m y d a u F t? )no passol:, X~~t?rq:,t?   p t ? v q 'Su!Spol jo
 )@!u t? )no passol:, )ou pt?y ay lt?y)pa):,ano:, ay y:,!y~ u! )d!a:,al 1a)oy t? pap!~old osp aH . h p
puoslad a w dt?pm)as parepap ay 'd1.q ay) oq loud )erg pa):,apaI y a y 'alueas~      01 d g ay) %!pp
 -aid uo!)t?z!loy)nt? laAt?l)a y ) 910
                                    ~ pap!~old ):,a[qns ay) ' ~ a ! ~ a ) u 8002
                                                                            !    '22 ~aqwa~dag  s y UI
                                                                                                    .hlal:,as
        sly y)psa!)ln:,rjJIp Su!:,uapadxa SEM aq )t?y) papasst?lnq '1 aunr p m 1g dvly uo d o y s y l o ~
                                                           u
       s:,!)sy&u!~ t? 01 panajal pt?y ay QMu ~ q d x a~ o plno:,  pa[qns ay) 'uo!)t?urroju! hop!pt?.x~uo:,
s!y) y l pa)uoguo:,
               ~         u a m ,,,;aun[ 1 ' h w 1E uo d o y s y l o ~s:,ps!n8u!l t? poy I,, '8u!jqs hre)al:,as
    sly 01 1!t?wa m )uas ):,a[qns ay) 'a:,go ay) 01 u.m)al uodn p m du) ay) 8upnp s h p I~uosladd m
arepap IOU prp ay sa)t?:,!pu! d g ay) loj pedal asuadxa s!y py)l:,a!qns ay) paurroju! 910 -~d!a:,a~
           s y uo dqs laJoy ayl jo )y8y t? )no passol:, uaAa pt?y ay ) ~ ypalqs
                                                                              l     aH -dt?pI~uosladt? SVM
   'goo2 ' 1E d ~ 'w~ ~ p mley)  l ~ slo1~8!1sa~u!
                                      s           910plo) ):,a[qns ay) ' ~ a ! ~ a ~8002 u ! '61 ~aqwaldas
             syy 8 u p a -)!S!A aqs ay)jo )uawa:,uawuro:, ay) o) loud sdvp OM^ 'go02 ' 0 ~ 'dt?pud
 uo paAp.m a d ay) p m pa[qng ayJ 'VM 'alut?as u! )!s!A a)!s t? papuaua pa[qng ay) 'go02 d t ? UI~
             5. Paris, France

On Thursday, May 21,2008, the Subject traveled to Paris, France at NSF's expense for meetings
scheduled for May 22-23,2008 and returned on Monday, May 2 6 , 2 0 0 8 . ~He~ traveled to and
from Paris with the PD, who was traveling to France for a wedding. We interviewed the Subject
and the PD to determine whether the Subject's trip was either planned or extended in order to
spend the 'weekend in Paris with the PD.

When OIG interviewed the Subject about this trip, he asserted that this trip had been scheduled
as early as December 2007 or January 2008, and that it had nothing to do with the fact that the
PD was going to be in France at the same time. OIG asked whether the Subject believed that the
meetings in France could have been held effectively by teleconference, as he had indicated via
emails in February and March 2008, prior to arranging his trip.33 The Subject conceded that at
some point, he did believe these meetings could have been held by teleconference, but this was
never the opinion of his French counterparts, nor did he believe retrospectively, that he had been
correct. That is, he knew after the May 22,2008 meeting that it would not have been as rich or
as productive had it been conducted by teleconference, noting that the meeting lasted over 8
hours and well into dinner.

OIG asked whether the Subject extended his trip an extra day, into Saturday, in order to spend
Sunday in Paris with the PD, and he denied this to be the case. He stated that he scheduled some
informal meetings for Saturday, and felt he appropriately charged NSF for that day, declaring
only Sunday as a personal day. When asked about Sunday, the Subject stated he declared
Sunday a personal day, and spent it with the PD in Paris, stating, "I like Paris."

During the PD's interview, she insisted that while she had been invited to be the "best man" in
her friend's wedding in France, she could not accept and did not make her travel arrangements
until one week before the trip for personal reasons; therefore, the purpose of the trip could not
have been for her and the Subject to spend time together. In addition, she provided a written
response after her interview affirming that as of May 5,2008, she "did not yet know if she would
be able to go to Marseilles, and did not have a ticket."34 Further, during her OIG interview, she
reported that the wedding was on Saturday, May 24,2008, and because she was in no shape to
travel back to Paris the night of the wedding, she traveled back to Paris on Sunday, May 25,
2008, and spent only that day with the Subject, spending Sunday night with friends.35

A review of emails establishes that both the Subject and the PD provided false or misleading
information regarding this trip. Email correspondence confirms that the PD had been invited on
March 18,2008 to serve as "best man" in her friend's wedding, and that she did, in fact, make
her reservations to Paris a month earlier than she reported. In fact, both the PD and the Subject
made their flight reservations to Paris on April 1 6 , 2 0 0 8 . ~Further,
                                                                  ~        at that time, the PD
                            <


32
   Tab 8, Expense Report.
33 Tab 4, Attachment E.
34 Tab 3, Attachment H.
35 Tab 3.
36 Tab 4, Attachment F.
forwarded her flight arrangements to the Subject asking him to "wave his magic wand" with
respect to seat assignments and he subsequently arranged for them to have adjacent seats on both
flights. 37 Therefore, while a personal situation may have arisen to prevent her from confirming
the arrangement with her friend until May 15,2008, she reserved her flights and planned to go
prior to that time.

In addition, the PD informed OIG that the wedding she attended took place on Saturday, May 24,
2008, and that she did not return to Paris until Sunday, May 25,2008, to spend only that day
with the Subject. In fact, written contemporaneous emails between the Subject and the PD while
in ~ r a n c eestablish
               ,~~      the wedding took place on Friday, May 23,2008,~'not Saturday, May 24,
2008, and it appeared that both the Subject and the PD intended to spend Saturday and Sunday
together in

The Subject also misinformed OIG investigators about this tip, stating that the dates of the trip
and travel had nothing to do with the PD's trip to France on the same date, and were set long
before he knew that the PD was traveling to France. In fact, while the idea of a spring meeting in
France may have been discussed as early as January 2008, the subject sent three emails in
February and March 2008 encouraging his counterparts to hold the meeting via teleconference. 4'
It was not until April 2008, when the PD was making her travel arrangements, that he confirmed
his May 22, 2008meeting in France, and worked to &-range other meetings in France for May
22-23,2008.

As an added note, unlike with the May 22-23,2008 meetings, OIG did not locate correspondence
establishing that the Subject attempted to schedule any NSF meetings on Saturday, May 24,
2008, though he declared that as an NSF business day. He also informed NSF's Deputy Director
that he had "an informal meeting at the Sorbonne with linguists from several countries involved
in establishing data archives." On that Saturday, the Subject wrote to the Deputy Director,
stating, "There is indeed a meeting here and that is where I am today but this is linguistics and
not the principal reason I came by any means, in fact quite in~idental."~~

Based upon this information, OIG determined the Subject lacked candor during an official
investigation by providing false or misleading information to OIG investigators, and that he
considered the PD's presence in France and his desire to spend the weekend in Paris with the PD,
into his decision of whether to travel to Paris and whether to extend his official trip through
Saturday at NSF's expense. This is especially troublesome given the Deputy Director's
statements to him that his travel needed to be both "essential" and "time-~ensitive,"~~   and his

37 Tab 4, Attachment F.
38 On-Friday,May 23,2008, the PD wrote, "We will go to the mairie for the wedding...the formal do this evening,"
and the Subject responded, "Just after loam so you must be fblfilling your official duties, done up and gorgeous."
[Tab 4, Attachment F].
39 Tab 10, Wedding Registry.
40 On Friday, May 23,2008, the Subject wrote, "Pointless to start a conversation where I don't know where the
begin. We'll begin on Saturday." He then wrote, "(iranslated) A story for tomorrow... I want a reenactment
tomorrow afternoon."[Tab 4, Attachment F].
41 Tab 4, Attachment E.
42 Tab 9, Email correspondence between Subject and NSF Deputy Director.
43 Tab 9.
representations to OIG that the NSF-funded portion of the trip met both of these requirements.
Total expenses incurred by NSF for Paris trip were $ 3 , 0 8 8 . ~ ~

        B.     Review of Applicable Rules and Regulations

As an IPA, the Subject is bound by the rules established in the Federal Travel ~ e ~ u l a t i o n s ; ~
NSF Personnel ~ h u a lprinciples
                          ,         of Ethical Conduct for Government ~ m ~ l o ~ e eand  s , NSF
                                                                                               4~
Manual 15, Conflicts of Interest., At a minimum, these require that "NSF employees act with
integrity and decency,"47they "avoid using public office for private gain,"48 they "not en age' in
criminal, dishonest, immoral or any other conduct that is prejudicial to the government,"' and
they "avoid any actions creating the appearance that they are violating the law or the ethical
 standard^."^' Moreover, pursuant to NSF's travel policy and the Federal Travel Regulations, all
NSF travel must be essential. Finally, the NSF Personnel Manual required the Subject to fblly
comply with this official OIG investigation by providing honest responses and information to the
questions posed.5

OIG concludes that the Subject had a duty to abide by these and other standards of ethics, and
failed to do so when he based NSF-funded travel decisions on personal as well as official
business purposes, at a financial cost to NSF, and lacked candor during his interviews with OIG
by providing false or misleading information.

111.    OIG Conclusions
                                                                                                           J
As an IPA detailed to a senior-level position in the federal government, the Subject is required to
adhere to high ethical standards. The Subject extended his travel and initiated trips, at least in
pertinent part, to facilitate his relationships with female companions, one of whom is an NSF
employee. The Subject abused his authority using his official NSF position and wrongfblly used
government funds totaling $1 1,283 to facilitate his liaisons. In addition, the Subject lacked
candor during the investigation by providing false or misleading information to OIG.

IV.     OIG Recommendations

Based on the facts presented above, OIG recommends that NSF take appropriate administrative
action with regard to the Subject.




44 Tab 11, Expense report.
45 41 C.F.R. 301.
46
   Executive Order 12674 (n).
47 NSF Manual 14, Ej 1-143.
48 NSF Manual 15, Section 3, "Standards of Ethical Conduct."
49 NSF Manual 1 4 , s I- 143.
   Executive Order 12674 (n).
51 NSF Manual 14, Personnel Manual, Section 143.
                                            NATIONAL SCIENCE FOUNDATION
                                               4201 WILSON BOULEVARD
                                               ARLINGTON, VIRGINIA 22230


                                                  January 26,2009




MEMORANDUM TO:                        Tim Cross
                                      Acting Inspector General

FROM:                                 Arden L. Bernent     b - ~~lzclq
                                                                  b
                                      Director

SUBJECT                               Investigative Report (Case #108060042)


In response to the above-referenced Confidential Report of Investigation, and after reviewing its
content and the Office of inspector General's recommendation to "take appropriate personnel
action with regard to the ~ubject"', NSF agrees that a portion of the Subject's NSF-funded tiavel
over five examined trips was based, in part, on personal rather than NSF business. Specifically,
NSF concluded that portions of his trips to Vancouver, Seattle, and Paris were unnecessary for
business purposes. Thus, NSF required the Subject to reimburse the Foundation for
He submitted that payment to NSF on December 8,2008. If you wish, we will be glad to share
with you our analysis of that reimbursement amount.
        -
As a result of hi actions and the conclusions in your report, NSF also prohibited him h l n going
on any international travel for the duration of his IPA tenure with NSF. In addition, he is no
longer permitted to approve his own domestic travel. Any domestic travel that he wishes to take
must be approved directly by the Deputy Director. Those restrictions went into effect on
November 3,2008.


In the transmittal memorandum accompanying the investigative report, OIG also recommended
that NSF take certain actions to deter its employees fiom engaging in any fixther instances of
travel abuse. It is my understanding that NSF responded to those recommendations on
                                                                                                    I
I
    The subject of this investigation was
                                                                                         Page 2
November 10,2008, and that there are several pending actions we are undertaking in order to
further address these serious matters. I would be happy to,discussthose actions with you, along
withMr. Amolie, Director of NSF's Office of Information and Resource Management.
